U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 17, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Children’s Hospital Association of Texas, et al. v. Alex M. Azar, II,
Secretary of Health and Human Services, et al., S.Ct. No. 19-1203

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 6,
2020, and placed on the docket on April 9, 2020. The government’s response is due on May 11,
2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 10, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-1203
CHILDREN'S HOSPITAL ASSOCIATION OF TEXAS,
ET AL.
ALEX M. AZAR, II, SECRETARY OF HEALTH AND
HUMAN SERVICES, ET AL.

DAVID B. SALMONS
MORGAN, LEWIS & BOCKIUS LLP
1111 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
202-373-6283
DAVID.SALMONS@MORGANLEWIS.COM

